Report No. DODIG-2012-041              January 17, 2012




          Evaluation of DoD Contracts Regarding
             Combating Trafficking in Persons:
    U.S. European Command and U.S. Africa Command
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350·1500




                                                                                  January 17, 20 l 2

MEMORANDUM FOR COMMANDER, U.S. EUROPEAN COMMAND
               COMMANDER, U.S, AFRI CA COMMAND
               ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION,
                 LOGISTICS, AND TECHNOLOGY
               ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH,
                 DEVELOPMENT AND ACQUISITON
               ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 ACQUISITION
               COMMANDER, U.S . ARMY EUROPE


SUBJECT: Evaluation of DOD Contracts Regarding Combating Trafficking in Persons:
         U.S. European Command and U.S. Africa Command
         (Report No. DODlG-20l2-041)

       We are providing this report for information and use.

       We previously requested management comments on the draft of thi s statutorily required
annual report from each organi zation. We received comments from U.S. Afi'ica Command; U.S.
Army Europe; the Office Assistant Secretary of the Army for Acquisition, Logistics, and
Teclmology; the Office of the Assistant Secretary of the Navy for Research, Development, and
Acquisition; and the Office of the Assistant Secretary of the Air Force for Acquisition and
considered their comments in preparing tillS final report.

          We have not received comments from U.S. European Command in time for inclusion into
tillS final report. We request that they provide comments to us by February 17,2012

      We appreciate all courtesies extended to the staff. Please direct questions to
SPO@dodig,mii. We will provide a formal briefing on the results of our evaluation if
management requests,




                                            Kennet P. Moorefield
                                            Deputy lspector General
                                             . for Special Plans and Operations
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank
Evaluation of DoD Contracts Regarding Trafficking in Persons:            Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                       January 17, 2012


                 Results in Brief: Evaluation of DoD
                 Contracts Regarding Combating
                 Trafficking in Persons: U.S. European
                 Command and U.S. Africa Command

What We Did
Section 232 of the “William Wilberforce Trafficking Victims Protection Reauthorization Act of
2008,” Public Law 110-457 (December 23, 2008), requires the Inspectors General of the
Department of Defense, the Department of State, and the United States Agency for International
Development to investigate a sample of contracts for which there is a heightened risk that a
contractor may engage in acts related to trafficking in persons.
In response, we reviewed a sample of 267 Department of Defense contracts for compliance with
the “Trafficking Victims Protection Act of 2000,” title 22, United States Code, chapter 78 (as
amended).
We reviewed contracts that had a place of performance in Combatant Command geographic areas
of heightened risk for trafficking in persons, selecting the U.S. European Command and U.S.
Africa Command areas of responsibility, specifically the Federal Republic of Germany, the Italian
Republic, and the United Kingdom for this, our third evaluation.
We conducted site visits at 11 U.S. military installations in the Federal Republic of Germany and
the Italian Republic, including the Headquarters of U.S. European Command and U.S. Africa
Command. We reviewed summarized Department of Defense criminal investigative case data
related to combating trafficking in persons that occurred in the U.S. European Command and U.S.
Africa Command areas of operation. We also reviewed policy and procedures revised by
responsible offices of the Department of Defense Components as a result of our prior Combating
Trafficking in Persons reports regarding U.S. Pacific Command and U.S. Central Command.

What We Found
  As a result of our site visits and interviews, we found:
  •   While 70 percent of the contracts sampled contained some form of a Combating Trafficking
      in Persons clause, only half had the current required Federal Acquisition Regulation clause.
  •   Three DoD contracting organizations specifically discussed the Federal Acquisition
      Regulation Combating Trafficking in Persons clause during post-award orientations with
      contractors to increase awareness of Combating Trafficking in Persons.
  •   U.S. Central Command Joint Theater Support Contracting Command issued revised
      guidance to reinforce the requirement that the Federal Acquisition Regulation Combating
      Trafficking in Persons clause is mandatory for all contracts, and clarified the proper usage
      of the Command-issued Combating Trafficking in Persons clause 952.222-0001.




                                                       i
Evaluation of DoD Contracts Regarding Trafficking in Persons:            Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                       January 17, 2012

What We Recommended
    •    The Assistant Secretaries for Acquisition of the Military Departments should ensure that
         the Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking in Persons”
         is included in all contracts identified as deficient in our review.
    •    The Commander, U.S. European Command, and Commander, U.S. Africa Command,
         should ensure that existing contingency plans and operational planning guidance include
         combating trafficking in persons considerations.

Client Comments and Our Response
The Offices of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology;
the Assistant Secretary of the Navy for Research, Development, and Acquisition; and the
Assistant Secretary of the Air Force for Acquisition concurred with our recommendation, and
provided a plan for correcting the deficient contracts.

U.S. Africa Command concurred with our recommendation, stating that their Inspector General
will provide oversight of the applicable Directorates and planning offices to ensure that CTIP
considerations are included in plans and command planning guidance for operation plans that
include contract support. U.S. European Command did not provide comments in time for
inclusion in this report. We request that they provide a response by February 17, 2012.

The draft of this report included an observation concerning CTIP considerations in pre-
deployment training. The Commander, U.S. Army Europe, non-concurred with our
recommendation, and stated that U.S. Army Europe was not the correct command to implement
the described training requirements. We agreed with management’s comments and concluded
that the observation was beyond the scope of this report. We deleted the observation from this
final report and intend to address the larger, DoD-wide training issue at a later date.

Recommendations Table
Client                                    Recommendations           No Additional Comments
                                          Requiring Comment         Required
Assistant Secretary of the Army                                     1
for Acquisition, Logistics, and
Technology
Assistant Secretary of the Navy                                     1
for Research, Development, and
Acquisition
Assistant Secretary of the Air                                      1
Force for Acquisition
Commander, U.S. European                  2.a.,2.b.
Command
Commander, U.S. Africa                                              2.a., 2.b.
Command

Total Recommendations in this Report: 2
Please provide responses by February 17, 2012.

                                                       ii
Evaluation of DoD Contracts Regarding Trafficking in Persons:                                                                         Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                                                                    January 17, 2012



Table of Contents
Results in Brief: Evaluation of DoD Contracts Regarding Combating Trafficking in Persons: U.S. European
Command and U.S. Africa Command ........................................................................................................................i
    What We Did .............................................................................................................................................................i
    What We Found .........................................................................................................................................................i
    What We Recommended ......................................................................................................................................... ii
    Client Comments and Our Response ....................................................................................................................... ii
    Recommendations Table.......................................................................................................................................... ii
Introduction .................................................................................................................................................................1
    Background ...............................................................................................................................................................1
    Objective ...................................................................................................................................................................3
    Scope ........................................................................................................................................................................3
    Methodology .............................................................................................................................................................3
Results ...........................................................................................................................................................................5
    Combating Trafficking in Persons Clause Inclusion in Contracts ............................................................................5
    DoD Trafficking in Persons Criminal Investigative Reporting.................................................................................9
    Follow-up on Prior Recommendations ................................................................................................................... 10
    Proactive Practice of CTIP Programs ..................................................................................................................... 11
Appendix A. Methodology and Acronyms.............................................................................................................. 13
    Methodology ........................................................................................................................................................... 13
    Acronyms ................................................................................................................................................................ 15
Appendix B. Summary of Prior Coverage.............................................................................................................. 17
Appendix C. Management Comments .................................................................................................................... 19
Appendix D. Report Distribution ............................................................................................................................ 20
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank
Evaluation of DoD Contracts Regarding Trafficking in Persons:                     Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                January 17, 2012



Introduction
Over the past decade, Congress passed legislation to address its concern regarding allegations of
contractor and U.S. Forces’ involvement in sexual slavery, human trafficking, and debt bondage.
Prior to 2000, allegations of sexual slavery, sex with minors, and human trafficking involving
U.S. contractors in Bosnia and Herzegovina led to administrative and criminal investigations by
U.S. Government agencies. In 2002, a local television news program aired a report alleging that
women trafficked from the Philippines, Russia, and Eastern Europe were forced into prostitution
in bars in South Korea frequented by U.S. military personnel, which resulted in an investigation
and changes in DoD policy. In 2004, official reports chronicled allegations of forced labor and
debt bondage against U.S. contractors in Iraq. These incidents, when confirmed, were contrary
to U.S. Government policy regarding official conduct 1 and reflected poorly on DoD.

Background
In 2000, the President signed into law two statutes responding in part to identified contractor and
U.S. Forces’ misconduct in Bosnia and Herzegovina: Public Law 106-386, which included the
“Victims of Trafficking and Violence Protection Act of 2000,” on October 28, and Public Law
106-523, “Military Extraterritorial Jurisdiction Act of 2000,” on November 22.

The stated purposes of the first statute are “…to combat trafficking in persons [CTIP], a
contemporary manifestation of slavery whose victims are predominantly women and children, to
ensure just and effective punishment of traffickers, and to protect their victims.” The second
statute established “Federal jurisdiction over offenses committed outside the United States by
persons employed by or accompanying the Armed Forces, or by members of the Armed Forces
who are released or separated from active duty prior to being identified and prosecuted for the
commission of such offenses.” Congress specifically extended this extraterritorial jurisdiction
over trafficking in persons (TIP) offenses committed by persons employed by or accompanying
the Federal Government outside the United States in Public Law 109-164, “Trafficking Victims
Protection Reauthorization Act Of 2005,” January 10, 2006.

Additional reauthorizations expanded the scope and applicability of the original statute. Public
Law 108-193, the “Trafficking Victims Protection Reauthorization Act of 2003,” December 19,
2003, gave the Government the added authority to terminate grants, contracts, or cooperative
agreements for TIP-related violations.
        The President shall ensure that any grant, contract, or cooperative agreement provided or
        entered into by a Federal department or agency under which funds are to be provided to a
        private entity, in whole or in part, shall include a condition that authorizes the department
        or agency to terminate the grant, contract, or cooperative agreement, without penalty, if
        the grantee or any subgrantee, or the contractor or any subcontractor (i) engages in severe
        forms of trafficking in persons or has procured a commercial sex act during the period of


1
 Executive Order 13257 “President’s Interagency Task Force To Monitor and Combat Trafficking in Persons,” of
February 13, 2002, and Executive Order 13333, “Amending Executive Order 13257 To Implement the Trafficking
Victims Protection Reauthorization Act of 2003,” March 18, 2004.


                                                       1
Evaluation of DoD Contracts Regarding Trafficking in Persons:                            Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                       January 17, 2012

           time that the grant, contract, or cooperative agreement is in effect, or (ii) uses forced
           labor in the performance of the grant, contract, or cooperative agreement.2

In 2006, the Civilian Agency Acquisition Council and the Defense Acquisition Council agreed
on an interim rule implementing the above stated requirement, adding Federal Acquisition
Regulation Subpart 22.17, “Combating Trafficking in Persons.” The regulation states that the
“subpart applies to all acquisitions,” and paragraph 22.1705, “Contract clause” states:
           (a) Insert the clause at 52.222-50, Combating Trafficking in Persons, in all solicitations
           and contracts.
           (b) Use the basic clause with its Alternate I when the contract will be performed outside
           the United States (as defined at 25.003) and the contracting officer has been notified of
           specific U.S. directives or notices regarding combating trafficking in persons (such as
           general orders or military listings of “off-limits” local establishments) that apply to
           contractor employees at the contract place of performance.

The DoD Inspector General mandate for this evaluation is contained in Public Law 110-457,
“William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” December
23, 2008. Subtitle D, section 232, which requires the Inspector General, for FYs 2010 through
2012, to:
           “…investigate a sample of … contracts, or subcontracts at any tier, under which there is a
           heightened risk that a contractor may engage, knowingly or unknowingly, in acts related
           to trafficking in persons, such as:
                (A) confiscation of an employee’s passport;
                (B) restriction on an employee’s mobility;
                (C) abrupt or evasive repatriation of an employee;
                (D) deception of an employee regarding the work destination; or
                (E) acts otherwise described in section 106(g) of the Trafficking Victims Protection
           Act of 2000 (22 U.S.C. 7104).”

Section 232 of Public Law 110-457 also requires a report to Congress no later than January 15
for three consecutive years:
           (A) summarizing the findings of the investigations conducted in the previous year,
           including any findings regarding trafficking in persons or any improvements needed to
           prevent trafficking in persons; and
           (B) in the case of any contractor or subcontractor with regard to which the Inspector
           General has found substantial evidence of trafficking in persons, report as to—
               (i) whether or not the case has been referred for prosecution; and
               (ii) whether or not the case has been treated in accordance with section 106(g) of the
               Trafficking Victims Protection Act of 2000 (22 U.S.C. 7104) (relating to termination
               of certain grants, contracts and cooperative agreements).

Report number IE-2010-001, “Evaluation of DoD Contracts Regarding Combating Trafficking in
Persons,” January 15, 2010 (2010 CTIP Report), addressed contracts in the U.S. Pacific
Command. The second report, SPO-2011-002, “ Evaluation of DoD Contracts Regarding
Combating Trafficking in Persons: U.S. Central Command,” January 18, 2011 (2011 CTIP
Report), discussed the results of our review of selected construction and services contracts

2
    The language is codified in section 7104g, title 22, United States Code (22 U.S.C. §7104g [2010]).


                                                           2
Evaluation of DoD Contracts Regarding Trafficking in Persons:                        Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                   January 17, 2012

awarded in FYs 2009 and 2010 in the U.S. Central Command geographic area of responsibility. 3
This report, the third in a three-part series, addresses a review of selected contracts in the U.S.
European Command and U.S. Africa Command geographic areas of responsibility with
performance in FY 2011. We announced this series of evaluations on August 5, 2009.

Objective
Our specific objective was to review a sample of DoD contracts for compliance with the
“Trafficking Victims Protection Act of 2000,” 22 U.S.C. 78 (2010), as amended, and to
summarize DoD CTIP investigative efforts.

Scope
We examined 267 contracts solicited, awarded, or administered by Army, Navy, Marine Corps,
and Air Force commands, as well as the Defense Agencies in the U.S. European Command and
U.S. Africa Command geographic areas of responsibility: specifically, the Federal Republic of
Germany, the United Kingdom, and the Italian Republic.

Our contract sample consisted of construction and service contracts performed in Europe or
Africa, each with a total value of $1 million or more and with a period of performance in FY
2011. We believe that this sample met the “heightened risk” standard stated in the statute (e.g.,
an increased opportunity “that a contractor may engage, knowingly or unknowingly, in acts
related to trafficking in persons”).

Methodology
We coordinated with the Inspectors General from the Department of State and the U.S. Agency
for International Development prior to performing site visits. On July 19, 2011, we consulted
with the Director of the Office to Monitor and Combat Trafficking in Persons at the Department
of State. We also contacted selected DoD administrative and criminal investigation
organizations to obtain TIP-related criminal statistic summaries.

We conducted site visits during September 2011, visiting the Headquarters of U.S. European
Command and U.S. Africa Command, and 13 other DoD organizations on U.S. Forces’
installations in the Federal Republic of Germany and the Italian Republic. We did not conduct
fieldwork in Africa. We interviewed military commanders and staff, contracting office staff, and
contractor representatives involved with the contracts in our sample. We also interviewed Army
and Air Force Exchange Service and Navy Exchange Service Command representatives to gain
an understanding of CTIP efforts for non-appropriated fund activities.

The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
generated a contract sample at our request using the Federal Procurement Data System-Next
Generation database. We further reviewed the contracts in our sample using the DoD Defense
Electronic Business Program Office’s Web-based Electronic Document Access database.

For a more detailed discussion of the project methodology, see Appendix A.
3
    For copies of these reports, see http://www.dodig.mil/Inspections/IPO/combatinghuman.htm


                                                         3
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank




                                                       4
Evaluation of DoD Contracts Regarding Trafficking in Persons:                        Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                   January 17, 2012



Results
Combating Trafficking in Persons Clause Inclusion in
Contracts
Observation
In our review of a selected sample of contracts for construction and services within the U.S.
European Command and U.S. Africa Command areas of responsibility, we found that 49 percent
(132 out of 267) were missing, or included an outdated or incorrect version of Federal
Acquisition Regulation (FAR) clause 52.222-50, “Combating Trafficking in Persons.” As a
result, contractors may not have been aware of current U.S. Government policy and contracting
officers were potentially unable to apply remedies in the case of violations.

Discussion
The Federal Acquisition Regulation (FAR) requires that all Federal solicitations and contracts
contain clause 52.222-50, “Combating Trafficking in Persons,” or the clause with Alternate I
modification for contracts with performance outside the U.S. 4 The team reviewed 267 DoD
construction and services contracts for work in the Federal Republic of Germany, the Italian
Republic, and the United Kingdom that had a period of performance in FY 2011, and provided
the contracts sample list to the responsible Commands.
                                        Incorrect
                                         Clause               Clause
                                           19%               Included
                                                               51%

                             Clause
                               Not
                            Included
                              30%



                     Figure 1. Presence of the CTIP Clause in Sampled Contracts

As shown in Figure 1, we found that 51 percent of the contracts (135 of 267) contained a proper
version of the mandatory FAR CTIP clause, and 19 percent of the contracts (52 of 267)
contained an incorrect citation. Incorrect citations included references to either an outdated
version of FAR clause 52.222-50 or a regional clause developed for supplemental use in the U.S.
Central Command area of responsibility, without inclusion of the mandatory FAR clause. In
summary, over two thirds (70 percent) of the contracts reviewed included CTIP requirements in
some form, while 30 percent of the contracts (80 of 267) did not contain any form of the FAR
clause.

4
  FAR paragraph 22.1705 requires FAR clause 52.222-50 Alternate I when “the contract will be performed outside
the United States…and the contracting officer has been notified of specific U.S. directives or notices regarding
combating trafficking in persons…that apply to contractor employees at the contract place of performance.”


                                                        5
Evaluation of DoD Contracts Regarding Trafficking in Persons:                           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                      January 17, 2012



Unlike the contract lists for our previously published reviews of U.S. Pacific (the 2010 CTIP
report) and U.S. Central Commands (the 2011 CTIP Report), the contract list for this review
contained contracts with award dates as far back as 1999. The solicitation and contract award for
24 of the 80 contracts that did not contain any form of the FAR clause occurred prior to
April 2006, the publication date of the original FAR CTIP clause. Inclusion of the clause in
these contracts should have occurred when exercising options or during contract modifications.

Noncompliance with the requirement to include the FAR CTIP clause in contracts has two
negative effects. First, contractors may not have been made aware of the U.S. Government’s
“zero tolerance” policy and self-reporting requirements regarding CTIP. Second, contracting
officers were potentially unable to apply applicable remedies to correct contractor violations
when the CTIP clause was not properly present. The number of contracts without any form of a
CTIP clause indicates that additional effort is still necessary to ensure compliance.

From our interviews, we found that while general awareness of the U.S. Government’s “zero
tolerance” policy among contractors in Germany and Italy was low, circumstances mitigated
potential risk. First, for the contracts we reviewed in the U.S. European Command and U.S.
Africa Command, virtually all the employees working on the DoD contracts were predominantly
either U.S. citizens or citizens of the host nation. The remaining were citizens of European
Union countries. These workers had well-defined rights 5 and both their country of employment
and home country had well-functioning law enforcement systems. 6 U.S. Command
representatives explained that the German and Italian governments conducted background and
security checks for all non-U.S. citizen employees, identifying national security and the desire to
ensure tax revenue as factors that reduced the risks of TIP.

Second, personnel and physical security requirements implemented by the U.S. Army Europe
since September 11, 2001, further limited the potential for severe forms of labor trafficking.
U.S. security and provost marshal organizations reviewed and provided access badges for every
contractor requiring access to U.S. facilities in Germany and Italy. Admittance to bases required
passing through checkpoints where individual access badges were checked against a central
database using the Installation Access Control System. 7

As stated above, just under one-third of the contracts in the reviewed sample did not contain any
form of the CTIP clause. However, Command representatives gave a variety of responses
concerning the application of the "Christian Doctrine" to certain cases of TIP-related violations
committed by contractors. 8 Under this doctrine, “a mandatory contract clause that expresses a
significant or deeply ingrained strand of public procurement policy is considered to be included



5
  Directive 2004/38/EC of the European Parliament and of the Council of 29 April 2004 on the right of citizens of
the Union and their family members to move and reside freely within the territory of the Member States.
6
  Germany and Italy both received Tier 1 placement by the Department of State. See Department of State,
“Trafficking in Persons Report, June 2011,” available at www.state.gov/g/tip.
7
  Army in Europe Regulation 190-16, 22 March 2005 and http://www.hqusareur.army.mil/opm/iacs/iacs.html.
8
  G.L. Christian & Associates v. United States, 160 Ct. Cl. 1, 312 F.2d 418 (1963), rehearing denied, 160 Ct. Cl. 58,
320 F.2nd 345, cert. denied, 375 U.S. 954, 84 S. Ct. 444, 11 L. Ed. 2d 314, 1963 U.S. LEXIS 24 (1963).


                                                          6
Evaluation of DoD Contracts Regarding Trafficking in Persons:                       Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                  January 17, 2012

in a contract by operation of law." 9 Specifically, the doctrine means that contractors might be
responsible for adhering to TIP laws even if the contract did not include the FAR CTIP clause.

However, subsequent courts have held that the Christian Doctrine does not permit the automatic
incorporation of every required contract clause. 10 Therefore, it is unclear whether, under all
circumstances, the CTIP clause will be automatically incorporated by law into all contracts. In
any event, the litigation required to apply the Christian Doctrine would unnecessarily complicate
and delay enforcement of the CTIP clause. At best, the Christian Doctrine is an after-the-fact
remedy for a failure to include the appropriate clauses in the contract.

The low TIP incident rate in countries that the Department of State categorized as Tier 1 that also
have permanent U.S. military bases (e.g., Germany, Italy, and Spain) provided DoD personnel
assigned to U.S. European Command and U.S. Africa Command virtually no experience with
TIP-related situations in those countries. However, the risk was higher for deployments and
associated contracting actions in the Commands’ areas of responsibility: countries in Eastern
Europe and on the African continent. The annual Trafficking in Persons report published by the
Department of State categorizes a majority of the countries in Eastern Europe as “countries
whose governments do not fully comply with the TVPA’s [Trafficking Victims Protection Act]
minimum standards,” (Tier 2), and all but two of the 52 countries on the African continent that
they reviewed and rated as Tier 2 or worse. 11

As of September 2011, Command representatives stated that they had limited presence in those
countries. This may change in the future, and both Commands will need to consider this
additional risk when planning for future deployments and stationing.

    Recommendation 1: The Assistant Secretary of the Army for Acquisition, Logistics, and
    Technology; Assistant Secretary of the Navy for Research, Development, and Acquisition; and
    the Assistant Secretary of the Air Force for Acquisition should ensure that the Federal
    Acquisition Regulation clause 52.222-50, “Combating Trafficking in Persons” is included in
    all contracts identified as deficient in our review.
    Recommendation 2: The Commander, U.S. European Command, and Commander, U.S.
    Africa Command, should ensure that:
        a. Existing contingency plans include combating trafficking in persons considerations as
           relevant; and,
        b. Command planning guidance includes combating trafficking in persons considerations
           as part of every operations plan that includes contract support.




9
  Amoroso Construction Co. v. United States, 12 F.3d 1072, 1075 (Fed. Cir. 1993), citing General Engineering &
Mach. Works v. O'Keefe, 991 F.2d 775, 779 (Fed. Cir. 1993).
10
   General Engineering & Mach. Works v. O'Keefe, 991 F.2d 775, 779 (Fed. Cir. 1993).
11
   Department of State, “Trafficking in Persons Report”, June 2011,” available at www.state.gov/g/tip.


                                                       7
Evaluation of DoD Contracts Regarding Trafficking in Persons:          Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                     January 17, 2012

Client Comments and Our Response
The Offices of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology;
the Assistant Secretary of the Navy for Research, Development, and Acquisition, and the
Assistant Secretary of the Air Force for Acquisition concurred with our recommendation, and
provided a plan for correcting the deficient contracts.

U.S. Africa Command concurred with our recommendation, stating that their Inspector General
will provide oversight of the applicable Directorates and planning offices to ensure that CTIP
considerations are included in plans and command planning guidance for operation plans that
include contract support. U.S. European Command did not provide comments in time for
inclusion in this report. We request that they provide a response by February 17, 2012.




                                                       8
Evaluation of DoD Contracts Regarding Trafficking in Persons:                      Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                 January 17, 2012



DoD Trafficking in Persons Criminal Investigative Reporting
Section 108 of Public Law 110-457 amended 22 U.S.C. §7109a, “Trafficking Victims
Protection,” to require that an integrated U.S. government database be established that provides
“an effective mechanism for quantifying the number of victims of trafficking on a national,
regional, and international basis….” The statute required the database to combine “all applicable
data collected by each Federal department and agency represented on the Interagency Task Force
to Monitor and Combat Trafficking….” 12

We requested reports from the Defense Criminal Investigative Service, and the Army, Navy, and
Air Force Military Criminal Investigation Organizations summarizing TIP-related criminal
investigative activity under their purview from September 1, 2010, to August 31, 2011. The
reports provided a summary of the DoD case data contributing to the national database. The
summaries included three TIP-related incidents involving, or alleging the involvement, of DoD
contractor or sub-contractor employees. None of the TIP-related incidents occurred in the U.S.
European Command and U.S. Africa Command areas of operations.

The U.S. Army investigated an allegation that Philippine women were being sold into sexual and
domestic servitude for DoD contractor personnel at Ali Al Salem Air Base, Kuwait, and that
their passports had been withheld, preventing them from leaving the country. The U.S. Army
investigated allegations against an individual with no DoD or DoD-contractor affiliation, as well
as three DoD contractor personnel. The investigators found sufficient evidence to support an
allegation of Transnational Slavery (under the Kuwait Criminal Code) against the non-DoD
individual, whose case was referred to and accepted by the Kuwait Criminal Investigation
Division in September 2010. U.S. Army investigators determined that allegations against the
three DoD contractor personnel were unfounded.

The U.S. Air Force initiated an investigation on April 28, 2011, based upon information alleging
that a subcontractor in Iraq was delaying the payment of salaries from its contracted drivers for a
period of three to four months, withholding their passports, and coercing employees to sign
employment contracts under threat of abandonment. On July 15, 2011, the information
pertaining to human trafficking was passed to the office of the Federal Bureau of Investigation at
the U.S. Embassy, in Baghdad, Iraq for investigation.

The Defense Criminal Investigative Service had an open investigation of possible labor-related
human trafficking violations by a sub-contractor in Afghanistan. As of December 2011, the
investigation was ongoing.




12
  Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” section
108, “Research on Domestic and International Trafficking in Persons.”


                                                       9
Evaluation of DoD Contracts Regarding Trafficking in Persons:                    Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                               January 17, 2012



Follow-up on Prior Recommendations
Usage of Localized Combating Trafficking In Persons Clauses
In the 2010 CTIP Report, we observed that U.S. Central Command Joint Theater Support
Contracting Command had issued acquisition instructions requiring the addition of a regional
CTIP clause, without explicitly reinforcing inclusion of the required FAR clause. As a result, we
identified over 65 contracts that contained U.S. Central Command Joint Theater Support
Contracting Command clause 952.222-0001, “Prohibition Against Human Trafficking,
Inhumane Living Conditions, and Withholding of Employee Passports,” while excluding the
mandatory FAR clause 52.222-50.

We recommended that the Commander, U.S. Central Command Contracting Command, should:
        a. Ensure that Federal Acquisition Regulation clause 52.222-50, “Combating Trafficking
        in Persons,” or Alternate I, is included in all contracts; and
        b. Provide additional guidance to clarify proper usage of the U.S. Central Command
        Contracting Command clause 952.222-0001, “Prohibition Against Human Trafficking,
        Inhumane Living Conditions, and Withholding of Employee Passports.”

In response, the U.S. Central Command Joint Theater Support Contracting Command issued
revised guidance on September 01, 2011, that reinforced the requirement that the FAR CTIP
clause is mandatory for all contracts and clarified the proper usage of the Command-issued CTIP
clause 952.222-0001.

U.S. Central Command: Contractor Demobilization
In their September 2011 update to their acquisition instruction, the Commander, U.S. Central
Command Joint Theater Support Contracting Command issued contract clauses addressing
contractor demobilization in the Republic of Iraq and the Islamic Republic of Afghanistan. 13

The instruction directs the inclusion of these clauses in all solicitations and contracts except
those for commodities. The policy describes the accountability of prime and subcontractor
personnel. The clause for operations in the Islamic Republic of Afghanistan states:

        Whether specifically written into the contract or not,…any persons brought into the
        Afghanistan CJOA [Combined Joint Operations Area] for the sole purposes of
        performing work on USG [U.S. Government] contracts, contract employers will return
        employees to their point of origin/home country once the contract is completed or their
        employment is terminated for any reason.

The clause applicable in the Republic of Iraq contains the same language, substituting “Iraq” for
“Afghanistan.” The clauses explicitly make the prime contractors responsible and accountable


13
  U.S. Central Command Joint Theater Support Contracting Command Acquisition Instruction, September 01,
2011, clauses 952.225-0016, “Contractor Demobilization (Afghanistan),” and 952.225-0017, “Contractor
Demobilization (Iraq).”


                                                      10
Evaluation of DoD Contracts Regarding Trafficking in Persons:                   Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                              January 17, 2012

for their actions, the actions of subcontractors at all tiers, and include remedies for non-
compliance.

The new clauses supplement FAR CTIP clause 52.222-50 (or Alternate I, as applicable) and U.S.
Central Command Joint Theater Support Contracting Command supplementary CTIP clause
952.222-0001.

We contacted the responsible offices of the DoD Components, and have determined that they
have addressed all other prior recommendations from the 2010 CTIP Report and 2011 CTIP
Report.

Proactive Practice of CTIP Programs
During our review of the U.S. European Command and U.S. Africa Command CTIP programs,
the team observed an excellent example of an organizational activity that addressed CTIP
requirements.

Post Award Orientation
Federal Acquisition Regulation subpart 42.5, “Postaward Orientation,” prescribes policies and
procedures for the post-award orientation of contractors and subcontractors through a
conference, letter, or other form of written communication. While not required, a contracting
office may choose to hold a meeting with a contractor in order to “(1) achieve a clear and mutual
understanding of all contract requirements, and (2) identify and resolve potential problems.” 14
Defense Federal Acquisition Regulation Supplement section 242.503, “Postaward Orientation,”
provides a standard form for use throughout DoD. 15

During our site visit, the U.S. Army Corps of Engineers European District Office and the 409th
Regional Contracting Office in Wiesbaden, Germany, and the 31st Contracting Squadron in
Aviano, Italy, demonstrated that they held post-award briefings with contractors that explicitly
included a discussion of FAR CTIP clause requirements. This raised contractor awareness,
informed the contractor of the U.S. Government “zero tolerance” policy regarding TIP, and
clarified expectations concerning worker treatment and the reporting of TIP or related incidents
to the U.S. Government.




14
  Federal Acquisition Regulation subpart 42.5, “Postaward Orientation.”
15
  Department of Defense Form 1484,” Post-Award Conference Record,” April 1986, accessed at
http://www.acq.osd.mil/dpap/dars/dfars/html/r20061109/253303.htm.


                                                      11
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank




                                                      12
Evaluation of DoD Contracts Regarding Trafficking in Persons:                      Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                 January 17, 2012



Appendix A. Methodology and Acronyms
Methodology
We announced this series of evaluations on August 5, 2009. We examined statutes, policies,
procedures, and management and oversight reports relevant to DoD policy and practices
regarding efforts to combat trafficking in persons.

We conducted this evaluation of a sample of contracts from the U.S. European Command and
U.S. Africa Command areas of responsibility from June to November 2011, in accordance with
the standards established by the President’s Council on Integrity and Efficiency (now the
Council of the Inspectors General on Integrity and Efficiency) and published in the Quality
Standards for Inspections and Evaluations, January 2011. The evidence we obtained provides a
reasonable basis for our observations and conclusions in concert with our objectives.

We selected the U.S. European Command and U.S. Africa Command areas of responsibility as
areas satisfying the “heightened risk” standard required by statute. 16 This decision was based on
reports of prior human trafficking incidents in the region and country “tier placements” in the
Department of State’s “Trafficking in Persons Report,” June 2011.

We met with the DoD CTIP program office, located within the office of the Under Secretary of
Defense for Personnel and Readiness. We coordinated with Inspectors General from the
Department of State and U.S. Agency for International Development. On July 19, 2011 we
consulted with the Director of the Office to Monitor and Combat Trafficking in Persons of the
Department of State. We contacted selected DoD administrative and criminal investigation
organizations to obtain summaries of criminal statistics related to trafficking in persons, as well
as case synopses of those that identified a DoD contractor or sub-contractor as a subject. A
common set of search terms was used for database queries.

We conducted site fieldwork during September 2011 at U.S. European Command and U.S.
Africa Command Headquarters in Stuttgart, Germany, and 13 other DoD organizations on U.S.
Forces installations in the Federal Republic of Germany and the Italian Republic. We did not
conduct fieldwork in Africa because the U.S. Africa Command does not yet have a significant
presence on the African continent.

The team conducted over 70 interviews with military commanders, contracting office staff, and
others to discuss CTIP issues. We performed sensing sessions with 60 contracting officer staff in
the Army, Navy, Air Force and Defense Contract Management Agency contracting units to
gauge awareness of CTIP efforts. We discussed CTIP implementation in non-appropriated fund
contracts with Army and Air Force Exchange Services and Navy Exchange Service
representatives. In addition, we interviewed representatives from 30 contractors, discussing
contractor self-reporting and training mechanisms.

16
  Public Law 110-457, “William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008,” section
232. See page 2 of this report.


                                                      13
Evaluation of DoD Contracts Regarding Trafficking in Persons:                       Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                                  January 17, 2012



We developed a sample of contracts through a data request submitted to the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics. The Defense Procurement and
Acquisition Policy Office generated our contract sample list from the Federal Procurement Data
System-Next Generation database.

Our selection criteria were contracts for construction and services with a: place of performance
in the U.S. European Command and U.S. Africa Command areas of operation, a period of
performance in FY 2011, and total contract value (including options) of $1 million or greater.
This resulted in a total sample size of 267 contracts with contract performance in Federal
Republic of Germany, the Italian Republic, and the United Kingdom. These constraints provided
us with a reasonable data set that was current and included labor-intensive efforts with
significant numbers of short- and medium-term employees susceptible to forced labor practices.

We reviewed sampled contracts to determine if the mandatory Federal Acquisition Regulation
clause 52.222-50 or Alternate I (when the contract was performed outside the U.S.) was
included. While we did not interview representatives from all of the contracting offices
responsible for the contracts in our sample, we can confirm that a majority of the contracts in our
sample were written using the Standard Procurement System / Procurement Desktop Defense
software application.

Use of Computer-Processed Data
We reviewed contract documents using the Defense Electronic Business Program Office
Electronic Document Access database, which provided the most efficient source for the
information required. The DoD Chief Information Officer directed all DoD Components to use
the Electronic Document Access database, but Components remained responsible for the
accuracy, authenticity, integrity, and timeliness of submitted documents. 17 We did not assess
database reliability or test the sample for completeness. We did not attempt to project additional
results from our sample and believe the sample reviewed was sufficient to support our
conclusions.

Contract Sample Scope Limitation
Our contract list initially included contracts written under authorities not governed by the FAR.

     •   Auftragsbautengrundsätze-1975 18 – The Auftragsbautengrundsätze, signed in
         1975, is an international agreement between the Federal Republic of Germany,
         and the United States of America, Canada, Great Britain, the Kingdom of
         Belgium, the Netherlands, and the French Republic. The agreement defines
         procedures for designing, planning, and executing construction works in support
         of foreign military forces in Germany. The German Construction Agency
         accomplishes construction projects under this authority on behalf of the U.S.
         Forces using German contracting procedures and adhering to German law.

17
   “DoD Electronic Document Access (EDA) Business Rules,” DoD Chief Information Officer memorandum,
November 5, 2001.
18
   The English translation for “Auftragsbautengrundsätze,” is “Base principles for construction contracts.”


                                                       14
Evaluation of DoD Contracts Regarding Trafficking in Persons:              Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                         January 17, 2012



    •    North Atlantic Treaty Organization (NATO) Maintenance and Supply Agency – The
         Agency was created by 28 NATO nations with the purpose of achieving maximum
         effectiveness in logistics support at minimum cost to those nations, both individually and
         collectively. The NATO Maintenance and Supply Agency obtains goods and services
         from contractors located in any of the participating nations, following rules and
         provisions described within Procurement Regulations (Functional Directive) Number
         251-01, 1st Revision including Amendment 2, 19 June 2009.

    •    Acquisition and Cross-Servicing Agreements – These agreements with U.S. allies or
         coalition partners allow U.S. forces to exchange common types of support, including
         food, fuel, transportation, ammunition, and equipment. The U.S. has concluded
         Acquisition and Cross-Servicing Agreements with 76 countries, including most NATO
         nations, the NATO Maintenance and Supply Agency, NATO Allied Command
         Transformation, and Supreme Headquarters Allied Powers Europe. These agreements
         are used for contingencies, peacekeeping operations, unforeseen emergencies, or
         exercises to address logistic deficiencies that cannot be adequately corrected by national
         means. The support received or given is reimbursed in cash, replacement in kind, or
         equal value exchange under the conditions of the agreement.

    •    Host Nation Utility Contracts – The NATO Status of Forces Supplementary Agreements
         assign responsibility to host nations to provide water, gas, electricity, and sewage
         disposal on a reimbursable basis. The provision of utilities was governed by host nation
         laws and only a specific set of provisions and clauses were allowed by the host nation to
         be incorporated into the contract.

Exclusion of the 54 contracts awarded under these four authorities reduced our initial sample size
from 321 to the 267 contracts reviewed for this report.

Acronyms
CTIP                     Combating Trafficking in Persons
FAR                      Federal Acquisition Regulation
NATO                     North Atlantic Treaty Organization
TIP                      Trafficking in Persons
U.S.C.                   United States Code




                                                      15
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank




                                                      16
Evaluation of DoD Contracts Regarding Trafficking in Persons:      Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                 January 17, 2012



Appendix B. Summary of Prior Coverage
Department of Defense Inspector General
DoDIG Report No. IE-2007-002, “Evaluation of DoD Efforts to Combat Trafficking in Persons,”
November 21, 2006.

DoDIG Report No. IE-2010-001, “Evaluation of DOD Contracts Regarding Combating
trafficking in Persons,” January 15, 2010.

DoDIG Report No. SPO-2011-002, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: U.S. Central Command,” January 18, 2011.

Unrestricted DoDIG reports can be accessed over the Internet at
http://www.dodig.mil/PUBS/index.html




                                                      17
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012




                                   This Page Intentionally Left Blank




                                                      18
Evaluation of DoD Contracts Regarding Trafficking in Persons:           Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                      January 17, 2012



Appendix C. Management Comments
As discussed beginning on page 7, we requested and received comments to a draft of this report
from the Offices of the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology; the Assistant Secretary of the Navy for Research, Development, and Acquisition;
and the Assistant Secretary of the Air Force for Acquisition; as well as U.S. Africa Command.
U.S. European Command did not provide comments in time for inclusion in this report. We
request they provide a response to our recommendations regarding the inclusion of the FAR
CTIP clause in contracts we reviewed.

The draft of this report included an observation concerning CTIP considerations in pre-
deployment training. Specifically, we discussed the inclusion of CTIP-related tasks in exercise
scenarios at the Army Joint Multinational Training Command and Joint Multinational Readiness
Center. We recommended that the Commander, U.S. Army Europe should include CTIP-related
tasks in the standard task list for leaders training and consider the these tasks when developing
simulated training exercises.

The Commander, U.S. Army Europe, non-concurred with our recommendation and stated that
U.S. Army Europe was not the correct command to implement the described training
requirements. The response further explained that the designation of pre-deployment training
conducted at the Joint Multinational Readiness Center was influenced by: the Combat Training
Center plan of the Office of the Chief of Staff of the Army; tasks designated by the Commander,
U.S. Army Forces Command; and the Combatant Commander with responsibility for the
contingency.

We agreed with management’s comments and concluded that the observation was beyond the
scope of this report. We deleted the observation from this final report and will address the
larger, DoD-wide training issue in a different product.




                                                      19
Evaluation of DoD Contracts Regarding Trafficking in Persons:         Report No. DoDIG-2012-041
U.S. European Command and U.S. Africa Command                                    January 17, 2012



Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
  Director, Law Enforcement Policy and Support

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology*

Department of the Navy
Assistant Secretary of the Navy for Research, Development, and Acquisition*

Department of the Air Force
Assistant Secretary of the Air Force for Acquisition*

Combatant Commands
Commander, U.S. European Command*
  Commander, U.S. Army Europe*
Commander, U.S. Africa Command*

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Foreign Relations
House Committee on Armed Services
House Committee on Foreign Affairs




* Recipient of the draft report



                                                      20
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 Army Navy Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Arlington, VA 22202-4704





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
